App. 1
APPENDIX A
Supreme Court of the State of New York
Appellate Division: Second Judicial Department
D61390
L/htr
Argued - September 3, 2019
AD3d__
MARK C. DILLON, J.P.
JOHN M. LEVENTHAL
JOSEPH J. MALTESE
LINDA CHRISTOPHER, JJ.
2017-00971

DECISION & ORDER

Macarieto I. Trayvilla, etc.,
et al., appellants, v Japan
Airlines, etc., et al.,
respondents.

(Filed Dec. 4, 2019)

(Index No. 4330/16)
Macarieto I. Trayvilla, Celestina Pinero-Trayvilla,
Rey Louis P. Trayvilla, and Sherry Lyn DoradoTrayvilla, Woodside, NY, appellants pro se.
Clyde & Co US LLP, New York, NY (Andrew J.
Harakas and Daniel E. Correll of counsel), for re­
spondents.
In an action, inter alia, to recover damages for
negligent infliction of emotional distress, the plaintiffs
appeal from an order of the Supreme Court, Queens
County (Thomas D. Raffaele, J.), entered December 14,

App. 2
2016. The order granted the defendants’ motion pursu­
ant to CPLR 3211(a) to dismiss the complaint.
ORDERED that the order is affirmed, with costs.
This action was commenced after the plaintiffs
Macarieto I. Trayvilla. and Celestina Pinero-Trayvilla
were refused carriage on a Japan Airlines flight from
New York to the Philippines, based on the expiration of
their Philippine passports, and allegedly were treated
rudely and threatened with arrest by an employee of
the defendant Japan Airlines The complaint asserted
causes of action to recover damages for negligent in­
fliction of emotional distress, assault, negligence,
breach of contract, and intentional infliction of emo­
tional distress. The defendants moved pursuant to
CPLR 3211(a) to dismiss the complaint. The Supreme
Court granted the defendants’ motion, and the plain­
tiff’s appeal.
We agree with the Supreme Court’s determination
directing the dismissal of the causes of action to re­
cover damages for negligent infliction of emotional
distress, assault, negligence, and -intentional inflic­
tion of emotional distress as barred by the applicable
statute of limitations (see CPLR 3211 [a] [5]). Those
causes of action were all barred by the one-year statute
of limitations applicable to intentional torts (see CPLR
215 [3]). In that regard, the causes of action that were
denominated as claims to recover damages for negli­
gent infliction of emotional distress and negligence
were premised only on allegations of intentional con­
duct, which cannot form the basis of a cause of action

App. 3
sounding in negligence and, thus, are governed by
the one-year limitations period of CPLR 215(3) (see
McDonald v Riccuiti, 126 AD3d 954; Dunn v Brown,
261 AD2d 432, 433).
In addition, we agree with the Supreme Court’s
determination directing the dismissal of the cause of
action to recover damages for breach of contract for
failure to state a cause of action (see CPLR 3211 [a] [7]).
DILLON, J.P, LEVENTHAL, MALTESE and CHRIS­
TOPHER, JJ., concur.
ENTER:
/s/ Aprilanne Agostino
Aprilanne Agostino
Clerk of the Court

App. 4
APPENDIX B
Short Form Order
NEW YORK SUPREME COURT QUEENS COUNTY
Present: HONORABLE
THOMAS D. RAFFAELE
Justice

IA Part 13

■

Former Prosecutor Macarieto
I. Trayvilla, Celestina PineroTrayvilla, Rey Louis Pinero
Trayvilla, Esq., Sherry Lyn
Dorado-Trayvilla,

Index

X Number: 4330/2016
Seq. No. 1
Motion
Date: 8/3/16
(Filed Dec. 14, 2016)

Plaintiffs,
-againstJapan Airlines (JAL) Erjon
Fjora In his capacity as
employee of JAL,
Defendants.
x

The following papers numbered 1 to 9 read on this mo­
tion by defendants Japan Airlines (JAL) and Erjon
Flora, seeking an order dismissing plaintiffs’ verified
complaint on the grounds that plaintiffs have failed to
state a claim upon which relief can be granted, their
claims are time barred by-the applicable statute of lim­
itations and/or preempted by the Airline Deregulation
Act and granting such other and further relief as -this
court deems just and proper.

App. 5
Papers
Numbered
Notice of Motion - Affidavits - Exhibits
Memorandum of Law in Support..........
Plaintiff’s Affidavit in Opposition.........
Memorandum of Law in Opposition.....
Reply Memorandum of Law..................

1-4
5
6-7
8

9

Upon the foregoing papers, the motion is granted
in its entirety. It is undisputed that plaintiffs Macarieto
I. Trayvilla and Celestina Pinero-Trayvilla attempted
to travel on a Japan Airlines aircraft with expired
passports. It is well settled that a valid unexpired pass­
port is required for Philippine nationals returning to
the Phillippines and accordingly JAL correctly refused
to check them in on October 22, 2014 (see Affirmation
of Antonio C. Pido, dated August 2, 2016 relying on the
Phillippines Passport Act of 1996). Under Philippine
law, a passenger holding an expired passport who
needs to travel to the Phillippines on an emergent ba­
sis must first obtain a travel document (id at para­
graph 20; see also the website for Embassy of the
Philippines, Washington, D.C. Travel Document re­
quirements). The aforestated plaintiffs failed to obtain
a travel document.
Moreover, the causes of action alleged herein are
time-barred.
In accordance with the foregoing, the action is
hereby dismissed, with prejudice.

t

App. 6
The foregoing constitutes the decision and order of
this court.
Dated: December 1, 2016

/s/ Thomas D. Raffaele
Thomas D. Raffaele,
J.S.C.

App. 7
APPENDIX C
State of New York
Court ofAppeals
Decided and Entered on the
twentieth day of October, 2020
Present, Hon. Janet DiFiore, Chief Judge, presiding.
Mo. No. 2020-503
Macarieto I. Trayvilla, &c., et al.,
Appellants,
v.
Japan Airlines, &c., et al.,
Respondents.
Appellants having appealed and moved for leave
to appeal to the Court of Appeals in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, on the Court’s own motion, that the
appeal is dismissed, without costs, upon the ground
that no substantial constitutional question is directly
involved; and it is further
ORDERED, that the motion for leave to appeal is
denied with one hundred dollars costs and necessary
reproduction disbursements.
/s/

HDavis
Heather Davis
Deputy Clerk of the Court

App. 8
APPENDIX D
[LOGO] Consulate General of the Republic of the
Philippines NEW YORK
556 Fifth Avenue, New York, NY 10036
Tel. No.: (+1) 212 7641330/Fax: (+1) 212-3821146
email: newyork.pcg@dfa.gov.ph • www.newyorkpcg.org
27 May 2016
Dear Atty. Travillas,
This has reference to your query on Filipinos re­
turning to. the Philippines on an expired passport.
As a matter of policy, the Philippine Bureau of Im­
migration (BI) will allow entry into the Philippines of
a Filipino citizen travelling with an expired Philippine
passport. This is an established and known practice
conveyed bv BID to the Department of Foreign Affairs
and disseminated to international airlines, including
Philippine Airlines, operating in the Philippines.
In the past, there were actual emergency cases
involving. Filipinos returning with expired passports
using PAL who were allowed to board the flight and
subsequently enter the Philippines.
That being said, however, the Consulate General
cannot vouch for the policy/ies of international airlines
and their appreciation of BID policy and rules and reg­
ulations. Any question arising from a BID policy in­
volving passengers returning to the Philippines lies
exclusively within the determination of BID.

App. 9
As a way forward, your client may wish to consider
taking Philippine Airlines to travel to the Philippines
and, if a different airline is being considered, prior
consultations with that airline would be necessary to
verify whether they will allow the passenger to board.
Sincerely
/s/ Mario L. De Leon, Jr.
MARIO L. DE LEON, JR.
Consul General
Atty. Rey Louis Travillas
Cc: paroy_t@yahoo.com

App. 10
APPENDIX E
CONDITIONS OF CARRIAGE
(INTERNATIONAL PASSENGERS AND BAGGAGE)
- Effective 23 August 2011 19. TIME LIMITATIONS ON CLAIMS AND ACTIONS
(A) Time Limitation on Claims
No claim for damage may be made in the case of dam­
age to Baggage, unless the person entitled to delivery
complains to an office of JAL forthwith after the dis­
covery thereof and no later than 7 Days from the date
of receipt; and, in the case of delay or loss, unless the
complaint is made no later than 21 Days from the date
on which the Baggage has been (in the case of delay)
or should have been (in the case of loss) placed at
his/her disposal. Every complaint must be in writing
and dispatched within the time aforesaid. In case Car­
riage is not “International Carriage” as defined in the
Convention, failure to give such notice of complaint
shall not prevent a claimant’s filing a suit if the Claim­
ant proves that:
(1) it was not reasonably possible for him/her to give
such notice;
(2) such notice was not given clue to fraud on the part
of JAL; or
(3) JAL had knowledge of the damage to the Passen­
ger’s Baggage.

App. 11
(B) Time Limitation on Actions
Any right to damages against JAL shall be extin­
guished unless an action is brought within 2 years
reckoned from the date or arrival at the Destination,
Nom the date on which the aircraft ought to have ar­
rived, or from the date on which the Carriage stopped.

App. 12
APPENDIX F
June 8, 2016
Attention: Mr. Correll
Clyde & Co.
405 Lexington Avenue
16th Floor
New York, NY 10174
Mr. Correll
I hereby certify that the attached electronic pages are
true copies of the official tariff pages issued by Airline
Tariff Publishing Company, Agent, for and on behalf
of Japan Airlines.
These pages are sent in reference to your request dated
2/6/16.
Sincerely,
/s/ Bernice C. Gray
Bernice C. Gray
Transportation Industry Analyst
Office of Pricing and Multilateral
Affairs Division
Enclosures

CASE OF DELAY, OR LOSS, UNLESS THE
COMPLAINT IS MADE NO LATER THAN 21
DAYS FROM THE DATE ON WHICH THE BAG­
GAGE HAS BEEN PLACED AT HIS DISPOSAL
(IN THE CASE OF DELAY), OR SHOULD HAVE

App. 13
BEEN PLACED AT HIS DISPOSAL (IN THE
CASE OF LOSS). EVERY COMPLAINT MUST
BE IN WRITING AND DISPATCHED WITHIN
THE TIME AFORESAID. IN CASE CARRIAGE
IS NOT “INTERNATIONAL CARRIAGE” AS DE­
FINED IN THE
A

CONVENTION, FAILURE TO GIVE SUCH NO­
TICE OF COMPLAINT SHALL NOT PREVENT
A CLAIMANTS FILING A SUIT IF THE CLAIM­
ANT PROVES THAT (A) IT WAS NOT REASON­
ABLY POSSIBLE FOR HIM/HER TO GIVE
SUCH NOTICE, (B) SUCH NOTICE WAS NOT
GIVEN DUE TO FRAUD ON THE PART OF JAL,
(C) JAL HAD KNOWLEDGE OF THE DAMAGE
TO THE PASSENGER’S BAGGAGE.

C (2) ANY RIGHT TO DAMAGES AGAINST JAL
SHALL BE EXTINGUISHED UNLESS AN AC­
TION IS BROUGHT WITHIN TWO YEARS
RECKONED FROM THE DATE OF ARRIVAL AT
THE DESTINATION, OR. FROM THE DATE ON
WHICH THE AIRCRAFT OUGHT TO HAVE AR­
RIVED, OR FROM THE DATE ON WHICH THE
CARRIAGE STOPPED.
OVERRIDING LAW - 74
A (E) OVERRIDING LAW
C

AS ANY PROVISION CONTAINED OR RE­
FERRED TO IN A TICKET OR IN THIS TARIFF
OR JAL’S REGULATIONS SHALL, EVEN IF IT
IS IN VIOLATION OF APPLICABLE LAWS AND
IS INVALID, REMAIN VALID TO THE EXTENT

App. 14
NOT IN CONFLICT WITH APPLICABLE LAWS.
THE INVALIDITY OF ANY
*

*

*

App. 15
APPENDIX G
To be Argued by:
ANDREW J. HARAKAS
(Time Requested: 15 Minutes)
New York Supreme Court
Appellate Division - Second Department
Docket No.:
2017-00971
FORMER PROSECUTOR MACARIETO I.
TRAYVILLA, CELESTINA PINERO-TRAYVILLA,
REY LOUIS P TRAYVILLA, ESQ. and
SHERRY LYN DORADO-TRAYVILLA,
Plaintiffs-Appellants,
- against JAPAN AIRLINES (JAL) and ERJON FJORA,
in his capacity as employee of JAL,
Defendants-Respondents.
BRIEF FOR DEFENDANTS-RESPONDENTS
Andrew J. Harakas
Daniel E. Correll
Clyde & Co US LLP
Attorneys for Defendants-Respondents
405 Lexington Avenue
New York, New York 10174
(212) 710-3900
Queens County Clerk’s Index No. 4330/16

App. 16

Appellants further allege that Fjora:
in a hateful manner assaulted all the plain­
tiffs thru [sic] THREATS of immediate AR­
REST, stressing the words with marked
resentment tones, at the same time pointing
and SWINGING his forefinger at the plain­
tiffs with disrespect and grave threats, saying,
“IF YOU SPEAK ONE MORE WORD I’ll sig­
nal that security to ARREST you and this
time you are really going to be in BIG BIG
TROUBLE!! I don’t want to hear ONE MORE
WORD!!!” There were, then, some armed men
in dark uniform some few meters nearby wait­
ing and looking straight at the Plaintiffs and
Eijon, who are conveniently available upon
his call or disposal.
R. 71, Complaint, 113 (emphasis in original).
JAL’s Conditions of Carriage and Filed Tariffs.
JAL’s Conditions of Carriage and Tariffs on file with
the United States Department of Transportation (“U.S.
DOT”) are incorporated by reference in the Passenger
Plaintiffs’ tickets and are part of the contract of car­
riage between the Passenger Plaintiffs and JAL. See
R. 133, Affidavit of Joseph Gutierrez, ^[^[7-8.
The relevant JAL Conditions of Carriage in effect
on the date of the incident provide:

App. 17
9.

CHECKIN

A Passenger shall arrive at JAL’s check-in
counter and the boarding gate, respectively by
the time indicated by JAL or, if no time is in­
dicated, sufficiently in advance of the flight
departure so that there will be enough time
for the Passenger to have check-in and depar­
ture procedures completed by the departure
time of the flight. If a Passenger fails to arrive
at JAL’s check-in counter or the boarding gate
by the time indicated by JAL or is unable to
depart because of improper or incomplete exit,
entry or other necessary documentation re­
quired for his/her departure, JAL may cancel
his/her reservation of a

